In The
Supreme Court of The United States
AQUABEUS MOORE,

*

*
*
*
*

vs.
UNITED STATES

No.

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS
The appellant, AQUABEUS MOORE, by and through his appointed counsel,
Sharnaisha Naki Richardson-Bax, respectfully requests leave of this Court to
proceed herein in forma pauperis in accordance with the provisions of 28 U.S.C.
§1915 and Rule 39 of this Court.
Please note the undersigned counsel did represent the appellant in the
proceeding before the United States Court of Appeals for the Fourth Circuit. The
undersigned’s representation was by way of appointment pursuant to the Criminal
Justice Act, 18 U.S.C. §3006A.

1

The petition for a writ of certiorari to the Supreme Court of the United States
accompanies this motion.

Originally known as the Criminal Justice Act of 1964; now titled as Criminal
Justice Act Revision of 1986.

1

1

Date: July 6, 2021

Respectfully submitted,
/s/ Sharnaisha Naki Richardson-Bax
Sharnaisha Naki Richardson-Bax
BAX LAW FIRM, PA
2 Merchant’s Lane
Suite 210
Beaufort, SC 29907
(843) 522-0980
naki.baxlaw@gmail.com

2

